Supreme Court, US.
. FILED' ■

OFFICE OF THE CLERK

No.
In The
SUPREME COURT OF THE UNITED STATES

Randall Winslow

Petitioner,

vs.

The Pennsylvania Supreme Court et. al.

Respondent.

On petition for a Writ of Certiorari to
the United States Coufilrt of Appeals
for the Third Circuit
rr

PETITION FOR A WRIT OF CERTIORARI

Randall Winslow - Pro-se
P.O. Box No. 961, Paoli, Penn. 19301
-Tel.-Ph. No. -610-212=6813

RECEIVED
AUG 2 ( 2021

.r

1

QUESTIONS PRESENTED
Whether Pennsylvania Certificate of Merit Pa.Code Rule 1042.3
comports with EQUAL JUSTICE that the outside of your building
proudly displays.
Whether Pa. Code rule 1042.3 interferes with Section 1778
Right to contract. The purpose of the Contract Clause was to prevent
the states from letting the privileged escape obligations. The
Certificate of Merit requirement permits the privileged from redress
unless you have tens of thousands of dollars to purchase the
Certificate of Merit.
Whether the Pa. Code Rule 1042.3 denies due process.

11

PARTIES TO THE PROCEEDING
Petitioner is Randall Winslow
Respondent(s) are The Supreme Court of Pennsylvania et.al.

in

RELATED PROCEEDINGS
No. 2:19 cv-4632 United States District Court for the Eastern
District of Pennsylvania
No. 20-1475 United States Court of Appeals for The Third Circuit

IV

TABLE OF CONTENTS

v

TABLE OF AUTHORITIES
CASES
Alvarez v. Attorney Gen. for Fla.,
679 F. 3d 1257 [11th Cir. 2012)
Casey v. Hurley,
671F. App'x 137 (4th Cir. 2016)

Davani v. Dep't of Transp.,
434 F. 3d 712 (4th Cir. 2006)
District of Columbia Court of Appeals v. Feldman
460 U.S. 462 (1983).................... .................... passim
Exxon Mobil Corp. v. Saudi Basic Industries Corp.,
544 U.S. 280 (2005)
Great W. Mining & Mineral Co. v. Fox Rothchild LLP,
615 F.3d 159 (3rd Cir. 2010)
Jordahl v. Democratic Party of Virgina,
122 F.3d 192 (4th Cir. 1997)
LaMar v. Ebert,
682 F. APP'x 279 (4th Cir. 2017)
Lance v. Dennis,
546 U.S. 459 (2006)
Muhammad v. Green,
633 F. App'x 122 (4th Cir. 2016 )
Nesses v. Sheppard,
68 F.3d 1003 (7th Cir. 1995)

Skinner v. Switzer,
562 U.S. 521 (2011)

STATUTES
28U.S.C. 1257
28 U.S.C. 1257(a)

passim

28U.S.C. 1738
42 U.S.C. 1983

OPINION(S) BELOW
Attached
JURISDICTION
The Third Circuit notified me of its decision on May 25th 2021 with
a case No. 20-1475 and is attached. This Court has jurisdiction under
28 U.S.C. 1254 -U.S. Code Unannotated Title 28. Judiciary and Judicial
Procedure 1254. Courts of appeals; certiorari; certified questions

CONSTITUTIONAL PROVISIONS INVOLVED
Artl. S10. Cl.5 Contract Clause
The Fifth Amendment
The Fourteenth Amendment
STATEMENT OF THE CASE
The (1st) first attorney/lawyer was Paul Rubino of Paoli,
Pennsylvania. Attorney Rubino and Petitioner Randall Winslow had
numerous business transactions over the years. He was contracted
with to file my appeal. Attorney Rubino never filed or protected my
appellate position.
The (2nd) attorney Evan Kelley was hired as an appellate attorney.
Attorney Kelley was contracted with to put forward Randall
Winslow's right to a complete defense. Attorney Kelley put forward
Sufficiency of the evidence assuring Randall Winslow that it's the
same as a complete defense.
Randall Winslow does not tolerate people being paid for something
and not getting what he has paid money to be executed.

REASONS FOR GRANTING THE PETITION

Unfortunately, the Third Circuit of Appeals court again never reached
the merits because it dismissed this case and the previous case on
jurisdictional grounds, including the Rooker-Feldman doctrine.
Federal Courts are an essential forum for vindicating federal'

constitutional rights against infringement by the states. The role is
undermined by the overly aggressive application of doctrines like
Rooker-Feldman, standing, the Eleventh Amendment, and abstention.
Rooker -Feldman doctrine is frequently raised as a defense in
lawsuits and this petition is to assist this court in correcting the
misinterpretation of Rooker-Feldman and to ensure that plaintiff
Randall Winslow and other plaintiffs are able to access the federal
courts to protect their constitutional rights.

SUMMARY OF THE ARGUMENT
Randall Winslow filed this case in federal court, alleging that a
Pennsylvania law/statute/rule is unconstitutional. Even though the
Supreme Court and other U.S. Circuits

have held that Rooker -

Feldman does not apply when a plaintiff challenges the validity of a
statute/law/rule, the court below concluded twice that it does apply
and bars plaintiffs suit. That is not the law. Rooker-Feldman applies
only when a federal plaintiff is attacking the merits of a state court’s
decision in a particular case. When by contrast, a plaintiff challenges
the validity of a statute or rule that the state court applied, then
Rooker-Feldman has no place.
The Rooker-Feldman doctrine is also inapplicable because Randall
Winslow is raising a due process and contract challenge to the
sufficiency of the very state proceeding that the court below held was
the cause of his injury. In other words, the court held twice that
Randall Winslow must prove his right to due process and contract in

the same proceeding that he alleges is defective. That defies both
common sense and precedent. To be sure, a plaintiff cannot simply
slap a due process and contract label on an argument whose
substance is that the state court's decision was wrong. But it is
another matter when a plaintiff credibly alleges that a state has
violated his federal due process and contract rights. That is what
Randall Winslow has done twice and here again; raised an
independent claim to which Rooker -Feldman does not apply.

ARGUMENT
I.

Randall Winslow has demonstrated that Rooker-Feldman
doctrine is inapplicable because the Pennsylvania Certificate
of Merit at issue is not the result of judicial actions. Yet, even
if Randall Winslow is wrong on that count, the doctrine
would still be inapplicable because he is challenging the
constitutionality of the Certificate of Merit. When a plaintiff
does not challenge the adverse (state court] decision but
instead

targets

statute/law/rule

as

unconstitutional

they

authoritatively

the

(

construed,

state)
then

Rooker-Feldman does not apply. Skinner v. Switzer, 562 U.S.
521, 532 (2011) (“[A] state court decision is not reviewable
by lower federal courts, but a statute or rule governing the
decision may be challenged in a federal action.").
The Feldman case, from which the Rooker Feldman doctrine
derives its name, illustrates this point. District of Columbia

Court of Appeals v. Feldman was a federal case brought by
unsuccessful applicants to the District of Columbia bar. 460
U.S. 462 (1983). The District of Columbia Court of Appeals
had recently adopted a rule limiting bar admission to
graduates of accredited law schools. Id. at 464-65. Two
applicants who had not attended accredited law schools
nevertheless petitioned for admission, requesting a waiver
of the rule, and emphasizing their unique circumstances and
qualifications. One of the applicants explicitly argued that the
D.C. Court of Appeals had the "plenary power to regulate the
licensing of attorneys...include[ing] the discretion to wave
the requirements of Rule 46 in a deserving case." Id. at 467.
The D.C. Court of Appeals denied the applicants requests for
waivers and both applicants subsequently brought actions
pursuant to 42 U.S.C. 1983 in federal district court, arguing,
inter alia, (1] that the bar admission was unconstitutional,
and [2] that the D.C. Court of Appeals had violated their
constitutional rights by failing to grant them waivers from
the rule. The Supreme Court distinguished between these
two types of claims. On one hand, the claim that the D.C.
Court of Appeals should have granted a waiver, based on the
applicants unique circumstances, was barred by the doctrine
we now know as Rooker-Feldman:
[I]t is clear that their allegations that the District of
Columbia Court of Appeals acted arbitrarily and capriciously

in denying their petitions for waiver and the court acted
unreasonably

and

discriminatorily

in

denying

their

petitions...required the District Court to review a final
judicial decision of the highest court of a jurisdiction in a
particular case.

460.U.S. at 486. In contrast, however, because "[t]he
remaining allegations in the complaints...involve[d] a
general attack on the constitutionality of the bar admission
rule, the court held that the district court did "ha[ve] subject
matter jurisdiction " over those claims and remanded for
further proceedings. Id. at 487. So, as long as a plaintiffs
challenge targets a statute or rule, then Rooker-Feldman
does not apply.
First, in Exxon Mobil Corp. v Saudi Basic Industries, the
Supreme Court noted that "since Feldman, this court has
never applied Rooker-Feldman to dismiss an action for want
of jurisdiction. " 544 U.S. 280,287 (2011). The Supreme
Court went on to criticize the lower courts because: the
doctrine has sometimes been construed to extend far beyond
the contours of the Rooker and Feldman cases, overriding
Congress' conferral of federal - court jurisdiction concurrent
with jurisdiction exercised by state courts, and superseding

the ordinary application of preclusion law pursuant to 28
U.S.C. 1738.
Id. at 283; accord Lance v. Dennis, 546 U.S. 459, 464 (2006)
(Neither Rooker or Feldman elaborated a rational for a widereaching bar on the jurisdiction of lower federal courts, and
our cases since Feldman have tended to emphasize the
narrowness of the Rooker- Feldman rule").
The Exxon court then specifically held that Rooker-Feldman
is

inapplicable

when

a

federal

plaintiff brings

an

"independent claim," even if prevailing on that claim could
have the effect of undoing a state court judgment. Exxon,
544U.S. at 293 ("Nor does 1257 stop a district court from
exercising subject-matter jurisdiction simply because a party
attempts to litigate in federal court a matter previously
litigated in state court."). An "independent claim" is easy to
identify, as it targets something other than the merits of a
state court's decision. In other words, if a plaintiff can plead
a claim without specifically" complaining about the courts
actions of a court in a particular case, then Rooker-Feldman
does not apply.
If there were any lingering doubt about the matter, the
Supreme Court dispelled it in Skinner. In Skinner, the Court
held that Rooker-Feldman does not apply when a federal
plaintiff challenges the constitutionality of a rule of decision
that was applied against him in state court. Skinner, S~62 U.S.

at 532 ("Skinner does not challenge the adverse CCA
decisions

themselves;

instead

,

he

targets

as

unconstitutional the Texas statute they authoritatively
construed. As the Supreme Court explained in Feldman, and
reiterated in Exxon, a state-court decision is not reviewable
by lower federal courts, but a statute or rule governing the
decision may be challenged in a federal action.") (citations
omitted); see also Alvarez v. Attorney Gen. for Fla., 679 F.3r
1257, 1263 (11th Cir. 2012) ("Skinner stands for the
unremarkable proposition that the existence of a state court
judgment interpreting or relying upon a statute does not bar
a federal court from entertaining an independent challenge
to the constitutionality of that statute.").

II.

ROOKER - FELDMAN also should not apply because Randall
Winslow made a procedural due process and other
constitutional claims argument.
When a federal plaintiff alleges that a state has denied due
process, and other unconstitutional claims, its illogical to
suggest that his rights were vindicated or upheld in the state
courts. Rooker-Feldman does not require federal plaintiffs to
take heroic measures to press constitutional arguments
before state courts. That concern animates other doctrines,
such as abstention and preclusion. For Rooker-Feldman
purposes, however, federal plaintiffs are entitled to take

state procedures as they are written. If as here the procedure
is inadequate, then they can file a federal lawsuit and allege
as much. They need not ask a state court to use its own
powers of judicial review to correct the procedural
deficiency. See Skinner, 562 U.S. at 563 n.ll
A court does not deprive a plaintiff of due process or
contract claim when it makes a wrong decision. However, it
does deprive a plaintiff of due process and freedom to
contract claim when a decision results from a process that is
constitutionally defective.
Indeed, a due process claim and contract claim that one
has been injured by inadequate or defective procedures is
another independent claim, of the type in Exxon. 544 U.S. at
293.
This court should recognize that procedural due process
and contract claims are exempt from Rooker-Feldman and
because if they are not, the right to receive due process
would be severely circumscribed. Procedural rights are,
almost by definition, only violated by courts. Granted, the
executive branch can take action that violates procedural
due process, but under most statutory schemes, courts are at
least nominally available to review such actions, though their
review is often highly deferential. In this case, of course,
there was no review at all. Even taking the district courts and
and U.S. Third Circuit's view of the facts, the Pennsylvania

court was at most, engaged in a ministerial act. If the
mandatory issuance of a court order is enough to trigger
Rooker-Feldman, and lack of standing as the court below
held, then procedural due process would largely be outside
the scope of federal protection. That result would neuter one
of the foundations of our constitutional order.

CONCLUSION

The United States 3rd Cir. Court's Rooker-Feldman ruling
and lack of standing should be reversed because it
erroneously deprives plaintiffs of a federal forum for their
constitutional claims and forces them to remain in the very
system that violates their constitutional rights in the first
instance. In reversing the court below, this court should
clarify, in a published opinion, (1) that Rooker-Feldman does
not apply when plaintiffs are challenging the validity of a
statute or rule, and (2] that Rooker-Feldman should not
apply when plaintiffs have alleged a violation of the
constitutional right to contract and procedural due process,
so that plaintiffs in future cases are not wrongfully denied
the protection of the federal courts.
The petition for certiorari should be granted.

Respectfully submitted,
—

Randall Winslow-Pro-se
P.O. Box-No.-961,
Paoli.Penna.19301
Tel. No. -610-212-6813

